                 The High Income Taxpayer Strategy Was
                  Effectively Implemented, Although Its
                  Success Still Needs to Be Determined

                                  November 2004

                       Reference Number: 2005-30-012




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                   November 16, 2004


      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION


      FROM:                         Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - The High Income Taxpayer Strategy Was
                                    Effectively Implemented, Although Its Success Still Needs to Be
                                    Determined (Audit # 200430013)


      This report presents the results of our review of the implementation of the High Income
      Taxpayer Strategy (HITS). The overall objective of this review was to determine
      whether the Small Business/Self-Employed (SB/SE) Division effectively implemented
      the HITS.
      As of Tax Year 2000, the number of individual income tax returns containing Total
      Positive Income (TPI)1 of $100,000 or more had grown to approximately 10 percent of
      the individual filing population. The Internal Revenue Service (IRS) Commissioner was
      concerned that there were potentially high levels of noncompliance in this segment of
      the population and that these taxpayers had the resources to avail themselves of
      sophisticated methods of tax avoidance. Of most concern were taxpayers having TPI of
      greater than $1 million on their tax returns.
      In Fiscal Year (FY) 2003, after conducting various research studies, the SB/SE Division
      developed four unique models or filters in an attempt to identify noncompliant high
      income taxpayer returns to select for examination. In FY 2004, SB/SE Division
      management implemented the HITS based on research from the selection model and
      started testing the new return selection model approach. The SB/SE Division
      Examination function selected 1,503 returns for examination. As of August 21, 2004,
      data provided by SB/SE Division management for these 1,503 returns showed



      1
        The TPI is calculated by using only positive income values from specific income fields on the tax return and
      treating losses as a zero.
                                                          2

employees had completed 85 examinations2 resulting in $1,392,743 of recommended
assessments (an average of $16,385 per return).
In summary, although the research and development of the HITS took over 3 years, the
SB/SE Division conducted thorough initial research to identify indicators of
noncompliance among high income taxpayers. To identify returns for examination from
the return selection model, SB/SE Division management implemented effective
classification and return selection procedures and delivered returns to Examination
function field groups as inventory was needed.
However, the ultimate success of the HITS still needs to be measured. In our opinion, a
method and specific baselines to measure the HITS’ overall success through closed
case results should have been determined earlier in the process. Original plans to
monitor the success of the HITS called for a report in November 2004 showing
measurement of selection rates3 and a report in December 2005 showing measurement
of examination results, although baselines had not been established against which to
measure the examination results. However, based on our discussions throughout the
audit and other factors, SB/SE Division management now recognizes the need for more
specificity in establishing the measures and baselines. In July 2004, SB/SE Division
management identified the need for an interim assessment of the Strategy, involving
operational field visits, before continuing to classify and select additional returns.
Starting with August 2004 results, they are now monitoring closed examination results
on a monthly basis. If these current monitoring plans continue as the HITS evolves,
there should be an effective measurement process to determine if the HITS is
addressing noncompliance and ensuring resources available in the SB/SE Division
Examination function are effectively used.
We made no recommendations in this report. However, key IRS management officials
reviewed it prior to issuance. Copies of this report are also being sent to the IRS
managers affected by the report. Please contact me at (202) 622-6510 if you have
questions or Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small
Business and Corporate Programs), at (631) 654-6028.




2
  In addition to examined cases, there have been some nonexamined cases resulting from short statutes and excess
inventories.
3
  Selection rates refer to the percentage of returns selected for examination during classification compared to the
number screened.
      The High Income Taxpayer Strategy Was Effectively Implemented, Although Its
                        Success Still Needs to Be Determined




                                             Table of Contents


Background ............................................................................................... Page 1
The Small Business/Self-Employed Division Effectively Implemented
the High Income Taxpayer Strategy .......................................................... Page 2
Plans Now Exist for Monitoring the Strategy’s Progress ........................... Page 6
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 9
Appendix II – Major Contributors to This Report ....................................... Page 11
Appendix III – Report Distribution List ....................................................... Page 12
Appendix IV – Open Case Monitoring by Status Code.............................. Page 13
     The High Income Taxpayer Strategy Was Effectively Implemented, Although Its
                       Success Still Needs to Be Determined

                                In Fiscal Year (FY) 2000, the Internal Revenue Service
Background
                                (IRS) Commissioner requested that the Small Business/
                                Self-Employed (SB/SE) Division conduct an indepth study
                                to determine whether taxpayers with large amounts of
                                income are complying with Federal income tax laws. High
                                income taxpayers were defined as those taxpayers with
                                Total Positive Income (TPI)1 of $100,000 or more, with
                                an emphasis on those with TPI greater than $1 million. As
                                of Tax Year 2000, the number of individual income tax
                                returns containing TPI of $100,000 or more had grown to
                                approximately 10 percent of the individual filing population.
                                The IRS Commissioner was concerned that a potentially
                                high level of noncompliance exists in this segment of the
                                population and that these taxpayers have the resources to
                                avail themselves of sophisticated methods of tax avoidance.
                                Since that time, the SB/SE Division has researched ways to
                                better identify returns of potentially noncompliant high
                                income taxpayers to increase the number of tax returns
                                examined for this taxpayer population. The SB/SE Division
                                developed four unique models or filters in an attempt to
                                identify noncompliant high income taxpayer returns to
                                select for examination. One of the action items included in
                                the FY 2004-2005 SB/SE Division Business Action Plan
                                was to implement a High Income Taxpayer Strategy (HITS)
                                based on the research from the selection model. In
                                FY 2004, the SB/SE Division started testing the new return
                                selection model approach.
                                This review was performed at the Brookhaven, New York,
                                Campus2 and Plantation, Florida, and Dallas, Texas,
                                Planning and Special Programs (PSP)3 offices during the
                                period February through September 2004. The audit was
                                conducted in accordance with Government Auditing
                                Standards. Detailed information on our audit objective,

                                1
                                  The TPI is calculated by using only positive income values from
                                specific income fields on the tax return and treating losses as a zero.
                                2
                                  The campuses are the data processing arm of the IRS. The campuses
                                process paper and electronic submissions, correct errors, and forward
                                data to the Computing Centers for analysis and posting to taxpayer
                                accounts.
                                3
                                  The PSP function is responsible for monitoring the inventory of tax
                                returns for the Examination function and assessing overall program
                                effectiveness.
                                                                                                 Page 1
      The High Income Taxpayer Strategy Was Effectively Implemented, Although Its
                        Success Still Needs to Be Determined

                                 scope, and methodology is presented in Appendix I. Major
                                 contributors to the report are listed in Appendix II.
                                 The goal of the HITS was to test the return selection model
The Small Business/
                                 for identifying tax returns with indications of
Self-Employed Division
                                 noncompliance and in need of examination. Our review
Effectively Implemented the
                                 showed that the SB/SE Division met this goal. SB/SE
High Income Taxpayer Strategy
                                 Division management:
                                     •   Conducted thorough initial research to identify a
                                         return selection model.
                                     •   Implemented effective classification and return
                                         selection procedures.
                                     •   Properly controlled and delivered returns to
                                         Examination function groups.
                                 As a result of these efforts, SB/SE Division management
                                 appropriately selected returns with potentially noncompliant
                                 issues for examination and delivered them to Examination
                                 function groups.
                                 SB/SE Division management conducted thorough initial
                                 research
                                 Although the research and development of the HITS took
                                 over 3 years, the SB/SE Division performed a thorough and
                                 effective analysis to identify indicators of noncompliance
                                 among high income taxpayers. The SB/SE Division
                                 assembled sufficient resources and expertise to develop the
                                 new return selection model.
                                 The SB/SE Division Research function performed various
                                 studies of high income taxpayers. In 2001, it performed
                                 market research and compliance analysis on taxpayers with
                                 TPI greater than $1 million. It profiled this population and
                                 separated it into six strata based on the natural breaks in the
                                 TPI distribution. In 2003, it prepared a validation study
                                 report designed to test the stability of the compliance profile
                                 from year to year.
                                 The Centralized Selection and Workload Delivery (CSWD)
                                 function also performed work related to high income
                                 taxpayers. In 2002, the CSWD function completed a task
                                 force study on high income taxpayers which identified
                                 noncompliance characteristics including the effects of
                                                                                         Page 2
The High Income Taxpayer Strategy Was Effectively Implemented, Although Its
                  Success Still Needs to Be Determined

                           flowthrough entities.4 That same year, the CSWD function
                           received a Compliance Initiative Project to test three
                           different approaches to selecting high income taxpayer
                           returns. They included Chi-squared Automatic Interaction
                           Detector (CHAID)5 node multivariate analysis, an outside
                           vendor scoring model, and a set of Midwest Automated
                           Compliance System (MACS) filters.6
                           In 2003, the SB/SE Division Research function initiated a
                           research study on a “4-model approach for Examination.”
                           This 4-model approach included the Discriminate Index
                           Function (DIF)7 as a consideration. The 4-model approach
                           became the basis for the HITS return selection and includes
                           the following filters:
                                 •   CHAID Node identifies the most noncompliant
                                     nodes of each stratum once returns have been
                                     categorized into strata based on the TPI.
                                 •   Adjusted Gross Income (AGI) 8/TPI Ratio compares
                                     the AGI with the TPI and selects those returns on
                                     which the AGI is significantly less.
                                 •   Comparative Year Analysis is used to find
                                     taxpayers who reduced their tax liability from an
                                     extraordinary one-time event.
                                •    DIF Score identifies returns with greater than a
                                     specified score.
                           Using the above models, the most potentially noncompliant
                           taxpayer returns would be those meeting the criteria for all
                           four models. Those taxpayers meeting the criteria for three
                           models would be the next potentially noncompliant taxpayer
                           returns, and so on.



                           4
                             An example of a flowthrough entity can be a partnership which reports
                           the share of income, losses, deductions, and credits that pass through to
                           the partners to report on their individual tax returns.
                           5
                             The CHAID is a multivariate technique employed to determine which
                           combination of variables is the best predictor of noncompliance.
                           6
                             The MACS is a menu-driven, automated database and data retrieval
                           system that stores 3 years of tax return data.
                           7
                             The DIF is a mathematical technique used to score income tax returns
                           for examination potential.
                           8
                             The AGI is the difference between the total income reported on the tax
                           return and certain allowable deductions.
                                                                                            Page 3
The High Income Taxpayer Strategy Was Effectively Implemented, Although Its
                  Success Still Needs to Be Determined

                           SB/SE Division management implemented effective
                           classification and return selection procedures
                           The population of high income taxpayers for the HITS
                           initially consisted of those taxpayers with TPI greater than
                           $1 million during Tax Years 2000 and 2001. The SB/SE
                           Division Research function identified a population of
                           213,262 taxpayers meeting the criteria and sampled
                           2,801 returns from that population. Our review of the
                           sample design and process showed the process was logical
                           and met proper sampling techniques.
                           Of the 2,801 returns sampled, employees classified
                           2,343 (458 of the returns from the sample of 2,801 were not
                           available). From the returns classified, employees:
                               •   Selected 1,503 for examination.
                               •   Accepted 840 as filed; therefore, they did not require
                                   an examination.
                           As of August 21, 2004, data provided by SB/SE
                           Division management showed employees had closed
                           85 examinations9 resulting in $1,392,743 of recommended
                           assessments (an average of $16,385 per return).
                           Classification procedures were effective. The classifiers
                           were experienced Examination function employees. They
                           received instructional aids regarding HITS-type cases and
                           issues. Case files included case-building items such as
                           original income tax returns and MACS prints to assist the
                           classifiers. In addition, there were subject matter experts
                           who both classified returns and assisted others with
                           technical questions.
                           We reviewed a judgmental sample of 30 returns selected for
                           examination from 2 SB/SE Division field offices (15 from
                           each office). The classifiers made appropriate decisions to
                           select the 30 returns for examination. Classifiers identified
                           issues that were complex and in line with the potentially
                           noncompliant issues related to this taxpayer population and
                           the overall HITS. For example, classifiers identified issues
                           such as basis of property, capital gains and losses, and

                           9
                            In addition to examined cases, there have been some nonexamined
                           cases resulting from short statutes and excess inventories.
                                                                                        Page 4
The High Income Taxpayer Strategy Was Effectively Implemented, Although Its
                  Success Still Needs to Be Determined

                           flowthrough income and losses. Also, we reviewed a
                           nationwide judgmental sample of 30 returns that classifiers
                           accepted as filed. Overall, we agree that the classifiers
                           made appropriate decisions to accept the returns as filed and
                           not select them for examination.
                           The same procedures are being used to classify another
                           segment of high income taxpayers having TPI greater than
                           $250,000 but less than $1 million. Although this phase of
                           classification was not complete at the time of our review,
                           classifiers had finished screening more than 50 percent of
                           the returns.
                           SB/SE Division management properly controlled and
                           delivered returns to Examination function groups
                           A review of the PSP functions in the two SB/SE Division
                           field offices showed that the PSP function controlled the
                           HITS cases on the Audit Information Management System
                           (AIMS)10 and properly tracked cases to deliver the returns to
                           Examination function groups. A further nationwide analysis
                           of the inventory of all HITS cases showed that, once all
                           classification details were complete, the PSP function
                           properly controlled, updated the status of, and delivered
                           returns to the Examination function field groups as
                           inventory was needed. The July 2004 inventory listing of
                           currently open HITS cases showed that 1,386 of
                           1,50011 (92.4 percent) cases had been processed through the
                           PSP function and sent to Examination function field groups,
                           where they were either waiting assignment to a revenue
                           agent (RA), already assigned, or closed.
                           Our review showed the inventory moved effectively from
                           the PSP function to the Examination function field groups.
                           The inventory levels overall decreased for those returns
                           selected but not assigned and steadily increased for those
                           returns on which examinations have been started. See
                           Appendix IV for the details of inventory movement.
                           An analysis of the experience and grade levels of the RAs
                           assigned HITS cases showed that HITS cases were properly

                           10
                              The AIMS is a computer system designed to provide information
                           about the returns open in and charged to the Examination function.
                           11
                              As of July 2004, 1,500 of the 1,503 cases selected for examination
                           remained open.
                                                                                            Page 5
        The High Income Taxpayer Strategy Was Effectively Implemented, Although Its
                          Success Still Needs to Be Determined

                                   assigned to the higher graded, more experienced RAs.
                                   Table 1 shows that 76 percent of the RAs assigned HITS
                                   cases were at the Grade 12 and 13 levels. In addition,
                                   another 21 percent were at the Grade 11 journeyman level.
                                   This closely matched the assignment goals of the HITS.
                                   These RAs generally have had sufficient training and
                                   experience in examining more complex returns, including
                                   those for individuals, all types of corporations, partnerships,
                                   and trusts.
                                                    Table 1: RAs Assigned HITS Cases

                                    RA Grade Level        Number of RAs          Percentage of
                                                                                     RAs

                                        5 and 9                  11                     3

                                           11                    73                    21

                                           12                   154                    43

                                           13                   117                    33

                                         Total                  355                    100

                                   Source: Examination Return Control System (ERCS)12 and Treasury
                                   Integrated Management Information System (TIMIS)13 (July 19, 2004).

                                   In addition, the RAs assigned HITS cases were provided
                                   instructional aids that included HITS guidelines and
                                   expectations. There was also online assistance available
                                   through an SB/SE Division web site.
                                   While the HITS was effectively implemented, the real
Plans Now Exist for Monitoring
                                   success of the Strategy cannot be determined until a
the Strategy’s Progress
                                   sufficient number of tax returns is examined. To evaluate
                                   the success of a new program or strategy, it is important to
                                   have established a feedback process. Part of this process is
                                   to establish specific measures and baselines to provide a
                                   reference point against which the results will be compared.
                                   When we began our review, the HITS management team
                                   was planning to measure selection rates14 as one way to

                                   12
                                      The ERCS is a national inventory system for controlling tax returns
                                   being examined.
                                   13
                                      The TIMIS is a computer system that supports payroll and personnel
                                   processing and reporting requirements for the IRS.
                                                                                                   Page 6
The High Income Taxpayer Strategy Was Effectively Implemented, Although Its
                  Success Still Needs to Be Determined

                           determine the success of the HITS. The FY 2004 goal for
                           the HITS was mainly directed at creating and testing a
                           return selection model. The measure for success was
                           whether the HITS 4-model approach was more productive
                           than use of the DIF score in identifying productive cases for
                           examination. A final report, due in November 2004, is
                           going to cover these results.
                           Also, when we began our review, there were less specific
                           plans for measuring the overall success of closed
                           examinations. SB/SE Division management was planning
                           to use the AIMS-Centralized Information System
                           (A-CIS)15 to monitor the status of returns. However, they
                           indicated it was too early in the process to establish the best
                           method of measuring results of the actual examinations
                           since at that point there were no closed cases. There are
                           plans for a supplemental report to be prepared in
                           December 2005 by the SB/SE Division Research function,
                           which will include examination results of closed cases.
                           In July 2004, SB/SE Division management identified the
                           need for an interim assessment of the Strategy before
                           continuing to classify and select additional returns. This
                           planned assessment includes operational visits to discuss
                           open cases and address issues such as whether:
                                •   The proper cases are getting to the field.
                                •   Barriers exist to the HITS.
                                •   RA skills are adequate.
                                •   Case assignment practices are effective.
                           More recently, SB/SE Division management informed us
                           they are now monitoring closed case examination results on
                           a monthly basis using the A-CIS, starting with the
                           August 2004 results. In addition to monitoring the A-CIS
                           monthly, SB/SE Division management is considering
                           selecting a date by which a sufficient number of cases has



                           14
                              Selection rates refer to the percentage of returns selected for
                           examination during classification compared to the number screened.
                           15
                              The A-CIS is a database-monitoring tool that provides monthly AIMS
                           data on both open and closed cases.
                                                                                        Page 7
The High Income Taxpayer Strategy Was Effectively Implemented, Although Its
                  Success Still Needs to Be Determined

                           been closed, so they can properly measure and evaluate the
                           results.
                           In our opinion, a method and specific baselines to measure
                           the HITS’ overall success through closed case results should
                           have been determined earlier in the process. However,
                           based on our discussions throughout the audit and other
                           factors, SB/SE Division management now recognizes the
                           need for more specificity in establishing the measures and
                           baselines. If these current monitoring plans continue as the
                           HITS evolves, there should be an effective measurement
                           process. It is important to determine as soon as possible
                           whether the Strategy is effective in addressing
                           noncompliance and ensuring resources available in the
                           SB/SE Division Examination function are effectively used.




                                                                                Page 8
       The High Income Taxpayer Strategy Was Effectively Implemented, Although Its
                         Success Still Needs to Be Determined

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the Small Business/Self-Employed
(SB/SE) Division effectively implemented the High Income Taxpayer Strategy (HITS). To
accomplish this objective, we:
I.      Determined whether adequate research was conducted to identify the high income
        taxpayer level of compliance by reviewing the various research projects’ documentation,
        data on high income taxpayers, and the selection model criteria.
II.     Determined whether the Strategy’s classification and selection procedures were properly
        and effectively followed.
        A. Reviewed the classification procedures and discussed procedures with managers and
           classifiers.
        B. Reviewed a judgmental sample of 30 cases from the 1,503 cases that had been
           classified and selected for examination at the time of our review. We selected
           15 unassigned cases from each of 2 SB/SE Division field offices. We used a
           judgmental sample because use of a statistical sample would have required extensive
           travel, as the cases sent to the Examination function field groups had been distributed
           nationwide.
             1. Determined whether sufficient case-building documentation was in the case files.
                We reviewed the case files to determine whether they included such items as the
                original tax returns, 3 years of Midwest Automated Compliance System (MACS)1
                prints, related return information, research material from public records
                information, currency transaction reports, Integrated Data Retrieval System
                (IDRS)2 information, classification check sheets, and special instructions for the
                examiners.
             2. Identified the types of issues classified, number of issues classified, and remarks
                made by the classifiers regarding the issues identified.
             3. Determined whether the issues were consistent with the Strategy’s goals and
                selection model criteria of having the most potential for adjustment.
             4. Determined whether the decision to select each case for examination was
                appropriate and if cases were classified consistently.


1
 The MACS is a menu-driven, automated database and data retrieval system that stores 3 years of tax return data.
2
 The IDRS is the Internal Revenue Service computer system capable of retrieving or updating stored information; it
works in conjunction with a taxpayer’s account records.
                                                                                                         Page 9
       The High Income Taxpayer Strategy Was Effectively Implemented, Although Its
                         Success Still Needs to Be Determined

        C. Reviewed a judgmental sample of 30 cases from the 840 cases that were classified
           and accepted as filed at the time of our review. We used judgmental sampling
           because we did not intend to project the results to the entire population.
             1. Determined whether the decision to accept the returns as filed was consistent with
                the Strategy’s goals and selection model criteria.
             2. Compared accepted as filed cases to those that were selected for examination and
                determined whether there were inconsistencies.
        D. Identified the classifiers’ experience, grade levels, and training on examination issues
           related to the HITS.
III.    Determined whether HITS cases received consistent priority when assigned to the field
        offices.
        A. Determined whether the two SB/SE Division field offices visited properly controlled
           the cases on the Audit Information Management System (AIMS)3 and identified the
           status of the cases in these offices.
        B. Determined whether HITS cases were properly assigned to examiners by analyzing
           the AIMS-Centralized Information System (A-CIS)4 December 2003 through
           July 2004 monthly reports. We determined the current status of each case and
           identified the priorities for case assignments.
        C. Determined whether HITS cases were assigned to examiners with experience in
           examining complex returns by identifying the examiners’ grade levels and extent of
           training.
IV.     Determined whether SB/SE Division management had adequate plans for monitoring and
        measuring the Strategy’s progress and results.
        A. Determined how the success of the return selection model and the Strategy’s overall
           success would be measured.
        B. Determined when results would be evaluated, such as on an interim basis, at the end
           of classification, or at the end of the examinations. We also determined
           whether/when potential changes would be made based on interim results.




3
  The AIMS is a computer system designed to provide information about the returns open in and charged to the
Examination function.
4
  The A-CIS is a database-monitoring tool that provides monthly AIMS data on both open and closed cases.
                                                                                                        Page 10
      The High Income Taxpayer Strategy Was Effectively Implemented, Although Its
                        Success Still Needs to Be Determined

                                                                                 Appendix II


                           Major Contributors to This Report

Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker Pearson, Director
Lynn Wofchuck, Audit Manager
Julian E. O’Neal, Lead Auditor
Pillai Sittampalam, Senior Auditor
Joseph Snyder, Senior Auditor




                                                                                       Page 11
     The High Income Taxpayer Strategy Was Effectively Implemented, Although Its
                       Success Still Needs to Be Determined

                                                                          Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Examination, Small Business/Self-Employed Division SE:S:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                               Page 12
        The High Income Taxpayer Strategy Was Effectively Implemented, Although Its
                          Success Still Needs to Be Determined

                                                                                                                    Appendix IV


                                                Open Case Monitoring by Status Code



                                800
                                700
            Number of Returns




                                600
                                500
                                400
                                                                                                                       SC 08
                                300
                                                                                                                       SC 10
                                200
                                                                                                                       SC 12
                                100
                                  0
                                      D


                                                 Ja


                                                          Fe


                                                                   M


                                                                             A


                                                                                       M


                                                                                                  Ju


                                                                                                           Ju
                                      ec




                                                                             pr


                                                                                        ay
                                                                   ar
                                                   n-


                                                            b-




                                                                                                    n-


                                                                                                             l-0
                                                                                -0
                                                                      -0
                                         -0




                                                                                           -0
                                                     04


                                                              04




                                                                                                      04


                                                                                                                4
                                                                                   4
                                                                         4
                                            3




                                                                                              4



                                                           Monthly Results

     Status Code (SC) and Description

     SC 08 Planning and Special Programs function – Selected Not Assigned
     SC 10 Field function – Assigned No Time Applied
     SC 12 Field function – Started

     Source: Audit Information Management System (AIMS)-Centralized Information System (A-CIS)1 – Examination
    function open data file (December 2003 – July 2004).




1
 The AIMS is a computer system designed to provide information about the returns open in and charged to the
Examination function. The A-CIS is a database-monitoring tool that provides monthly AIMS data on both open and
closed cases.
                                                                                                                         Page 13
